OIG Investigative Reports, Two Bay Area Men Plead Guilty to Abusing Federal Student Loan Database and Violating the Privacy Act
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
United States Attorney A. Brian Albritton Middle District of Florida
Tampa | Orlando | Jacksonville | Ocala | Fort Myers
FOR IMMEDIATE RELEASE Wednesday - July 22, 2009 http://www.usdoj.gov/usao/flm/pr
CONTACT:  STEVE COLE PHONE: (813) 274-6136 FAX: (813) 274-6300
TWO BAY AREA MEN PLEAD GUILTY TO ABUSING FEDERAL STUDENT LOAN DATABASE AND VIOLATING THE PRIVACY ACT
Tampa, FL - United States Attorney A. Brian Albritton announces that Len R. Breidert (age 47, of New Port Richey) and David M. Brabson (age 54, of Palm Harbor) have pleaded guilty to obtaining unauthorized access to the National Student Loan Database (NSLDS) a violation of 18 USC 1030(a)(2)(B) and (c)(2)(A) — and to violating the Privacy Act by wrongfully obtaining an individual's record. Brabson and Breidert face a maximum penalty of one year in federal prison, a fine of not more than $100,000, and a one-year term of supervised release. Both men pleaded guilty before United States Magistrate Judge Elizabeth Jenkins; Breidert pleaded guilty today and Brabson entered his plea on July 8.
According to the plea agreements, both Brabson and Breidert were employed at loan consolidation companies in Pinellas County, where they abused their access privileges to the NSLDS, a comprehensive computerized database maintained by the United States Department of Education that contains borrowers' personal and financial information. Federal law allows the Department of Education to grant access to NSLDS for external users such as lenders, school financial aid professionals, and certain loan consolidation companies. Access, however, is governed by stringent rules, and users are advised that NSLDS is confidential and protected by the Privacy Act of 1974.
Brabson was the marketing director for University Financial Lending Services and had access to NSLDS. In Spring 2007, Brabson misused database accounts by making unauthorized reassignments of NSLDS passwords and user i.d.'s: After the Department of Education terminated the NSLDS accounts of three other UFLS managers for abusing the system, Brabson gave those managers other employees' passwords and user i.d.'s so they could continue to access the system.
Breidert was employed as a senior financial specialist by Student Funding Services in Largo. Between 2005 and 2007, Breidert used his access to NSLDS to mine borrowers' personal information without obtaining the borrowers' consent. He also improperly used other employees' passwords to gain access to the database.
These individuals knowingly and willfully abused their positions of trust to unlawfully access student information from the Department's National Student Loan Database System. They didn't think they would get caught. They were wrong, said Mary Mitchelson, acting Inspector General of the U.S. Department of Education. OIG will continue to aggressively pursue and seek the prosecution of those who unlawfully access student records and misuse Department computer systems to commit crime."
This case was investigated by the United States Department of Education, Office of Inspector General. It is being prosecuted by Assistant United States Attorney Cherie L. Krigsman.
Top
Printable view
Last Modified: 07/23/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov